No. 19-1368
IN THE

WALMART STORES, INC., ET AL.,
Petitioners,
v.
TEXAS ALCOHOLIC BEVERAGE COMMISSION, ET AL.,
Respondents.
On Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
BRIEF OF RETAIL LITIGATION CENTER,
INC., AS AMICUS CURIAE IN SUPPORT OF
PETITIONERS
Deborah R. White
RETAIL LITIGATION
CENTER, INC.
99 M Street, SE
Suite 700
Washington, DC
20003

Eric F. Citron
Counsel of Record
Lisa X. Jing
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
(202) 362-0636
ecitron@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTEREST OF AMICUS CURIAE ............................. 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ................................................................ 3
ARGUMENT ................................................................ 6
I.

The Fifth Circuit’s Formalistic Rule Is Wrong
Under This Court’s Commerce Clause
Jurisprudence. ....................................................... 6

II. The Fifth Circuit’s Rule Undermines The
Goals Of The Commerce Clause. .......................... 9
A. Texas’s Ban Exemplifies The
Protectionist Nature Of Corporate-Form
Regulations. .................................................. 10
B. Total Bans Of Public Corporations From
Markets Impede An Important Source Of
Interstate Competition. ................................ 13
C. The Fifth Circuit’s Rule Leads To
Arbitrary Results. ......................................... 16
CONCLUSION .......................................................... 20

ii
TABLE OF AUTHORITIES
Cases
Allstate Ins. Co. v. Abbott,
495 F.3d 151 (5th Cir. 2007) .................................... 8
Exxon Corp. v. Governor of Maryland,
437 U.S. 117 (1978) ...................................... 3, 7, 8, 9
Granholm v. Heald,
544 U.S. 472 (2005) .................................................. 7
Hughes v. Alexandria Scrap Corp.,
426 U.S. 794 (1976) .................................................. 7
New Energy Co. of Ind. v. Limbach,
486 U.S. 269 (1988) .................................................. 3
Quill Corp. v. North Dakota,
504 U.S. 298 (1992) .......................................... 19, 20
S. Dakota v. Wayfair, Inc.,
138 S. Ct. 2080 (2018) .................................... passim
Tennessee Wine & Spirits Retailers Ass’n v.
Thomas,
139 S. Ct. 2449 (2019) .................................... passim
Wal-Mart Stores, Inc. v. Texas Alcohol Beverage
Comm’n,
945 F.3d 206 (5th Cir. 2019) ...................... 6, 7, 8, 16
Wal-Mart Stores, Inc. v. Texas Alcoholic
Beverage Comm’n,
313 F. Supp. 3d 751 (W.D. Tex. 2018) ........... passim
West Lynn Creamery, Inc. v. Healey,
512 U.S. 186 (1994) .................................................. 4
Statutes
Cal. Bus. & Prof. Code § D. 9 .................................... 15
Tex. Alco. Bev. Code § 22.16(a) ........................... 10, 11

iii
Rules
Sup. Ct. R. 37 ............................................................... 1
Other Authorities
Cal. Dep’t of Alcohol Beverage Control, License
Types, https://bit.ly/320qY25 ................................. 15
Cal. Dep’t of Tax and Fee Admin., Pub. No. 329,
Alcohol Industry Trends (2019) ............................. 15
THOMAS PHILIPPON, THE GREAT REVERSAL (2019) .... 14

INTEREST OF AMICUS CURIAE*
The Retail Litigation Center, Inc. (“RLC”) is the
only trade organization dedicated to representing the
retail industry in the judiciary. The RLC’s members
include many of the country’s largest and most innovative retailers. These leading retailers employ millions of workers in the United States, provide goods
and services to tens of millions of consumers, and account for tens of billions of dollars in annual sales. The
RLC seeks to provide courts with retail-industry perspectives on important legal issues impacting its members, and to highlight the potential industry-wide consequences of significant pending cases. Since its founding in 2010, the RLC has participated as an amicus in
more than 150 judicial proceedings of importance to
retailers.
The RLC and its members have a significant interest in this case. Nearly all RLC members are public
corporations based outside of Texas. Some RLC members sell liquor. As a result, they are barred by Texas’s
public corporation ban and subject to the ban’s disproportionate effects on out-of-state corporations. More
importantly, RLC members have a strong and abiding
interest in ensuring that the Commerce Clause serves

*

Pursuant to Supreme Court Rule 37, counsel for amicus represents that they authored this brief in its entirety and that none
of the parties or their counsel, nor any other person or entity
other than amicus or their counsel, made a monetary contribution intended to fund the preparation or submission of this brief.
All parties have consented to the filing of this brief, and counsel
for all parties received timely notice of amicus’s intent to file this
brief.

2
its role as “the primary safeguard against state protectionism,” Tennessee Wine & Spirits Retailers Ass’n v.
Thomas, 139 S. Ct. 2449, 2461 (2019), in all industries.

3
INTRODUCTION AND SUMMARY OF
ARGUMENT
The Commerce Clause forbids States from adopting “protectionist measures” that shut out a “national
market for goods and services” from their borders.
Tennessee Wine & Spirits Retailers Ass’n v. Thomas,
139 S. Ct. 2449, 2459 (2019) (quoting New Energy Co.
of Ind. v. Limbach, 486 U.S. 269, 273 (1988)). Nevertheless, the Fifth Circuit upheld Texas’s public corporation ban, which has restricted the State’s retail liquor market to a small number of powerful local players. The Fifth Circuit did so because it believed, under
Exxon Corp. v. Governor of Maryland, 437 U.S. 117
(1978), that a facially neutral ban regulating market
entrants based on corporate form can never have discriminatory effect against interstate commerce, no
matter the effects of the ban in reality.
That rigid, bright-line interpretation of Exxon is
wrong, and if allowed to stand, will entrench a policy
harmful to interstate commerce, free-market competition, and consumers who ultimately benefit from a
competitive marketplace. At the same time, state legislatures will be emboldened to exclude out-of-state
competitors under the guise of corporate-form regulation, safe in the knowledge that courts will be unable
to examine the actual discriminatory effects of these
regulations, however transparent the disguise may be.
The Fifth Circuit’s formalistic approach is indefensible because this Court has warned, time and
again, that its “Commerce Clause jurisprudence ‘eschew[s] formalism for a sensitive, case-by-case analysis of [the] purposes and effects’” of state laws. S. Dakota v. Wayfair, Inc., 138 S. Ct. 2080, 2094 (2018)

4
(quoting W. Lynn Creamery, Inc. v. Healey,
512 U.S. 186, 201 (1994)). Just last Term, this Court
applied that analysis and recognized that a ban of “all
publicly traded corporations” from a market was
“based on unalloyed protectionism.” Tennessee Wine,
139 S. Ct. at 2474. There is, accordingly, no plausible
defense of the Fifth Circuit’s view that a facially neutral ban of all public corporations can never be invalidated. That is particularly so where, as here, the ban
is accompanied by a unique grandfather clause that
exempts certain in-state public corporations from the
ban and doubles down on the protectionist effects.
While the Fifth Circuit’s per se rule blesses
Texas’s ban, this Court’s required “sensitive, case-bycase analysis” of discriminatory effect would easily reject it. Wayfair, 138 S. Ct. at 2094. The ban impedes
fair competition between local and interstate commerce, deprives consumers of benefits that open competition creates, and contravenes the Constitution’s
protection of robust interstate commerce. Twenty-five
years after the ban’s adoption, 98% of retail liquor
stores in Texas are 100% Texas-owned. Only four discrete out-of-state entities own 5 of the nearly 2,600
stores in the State. The majority of the Texas market
share belongs to a few powerful local families. These
anticompetitive and discriminatory effects, which the
district court correctly tied to the ban, reflect local protectionism at its very worst.
The benefits of eliminating such protectionism are
as obvious today as they were to the Founders in 1789.
Retailers, like RLC members, bring healthy competition to local markets, offer consumers a wide selection
of goods from national supply chains, and create opportunities for producers and suppliers throughout the

5
country. These positive effects extend to the retail liquor market. In States like California, public corporations are permitted to compete in this market and no
demonstrable harms have followed.
A final point bears emphasis. The Fifth Circuit’s
rule is arbitrary because there is no legitimate reason
for Texas to target public corporations. In Wayfair,
this Court made clear that judge-made rules based on
“arbitrary, formalistic distinction[s]” that have no intelligible regulatory purpose under the Commerce
Clause are improper. Wayfair, 138 S. Ct. at 2092.
Thus, this Court invalidated a longstanding rule that
only retailers with physical presence in a State were
required to collect sales tax on transactions with instate customers, because this physical-presence requirement had no actual purpose or value under the
Commerce Clause. See id. at 2092–99. Similarly here,
Texas’s claims that the public corporation ban is necessary for public health and safety are implausible on
their face: There is no meaningful difference between
the large private retailers that Texas favors and the
public corporations that Texas excludes for public
health and safety purposes, or otherwise. The Fifth
Circuit’s reinforcement of Texas’s arbitrary line-drawing is thus itself arbitrary and improper. The rule “creates rather than resolves market distortions,” id. at
2085, by advantaging private entities, incentivizing
retailers to manipulate their corporate form to enter
Texas’s restricted market, and motivating state legislatures to adopt similar laws that advance protectionism. Even worse than the physical-presence rule in
Wayfair, the Fifth Circuit’s rule enables the very
harms that the Commerce Clause targets: extreme

6
state protectionism and the obstruction of national
markets.
ARGUMENT
I.

The Fifth Circuit’s Formalistic Rule Is
Wrong Under This Court’s Commerce
Clause Jurisprudence.

The Fifth Circuit held below that a “facially neutral ban does not have a discriminatory effect” so long
as the ban “treats in-state and out-of-state public corporations the same.” Wal-Mart Stores, Inc. v. Texas Alcohol Beverage Comm’n, 945 F.3d 206, 220–21 (5th
Cir. 2019). Period. This rule is fundamentally wrong
under this Court’s Commerce Clause jurisprudence,
which requires courts to examine the real-world discriminatory effects of state laws, not just their formal
neutrality.
State laws violate the Commerce Clause if they either “discriminate against interstate commerce” in
their purposes and effects or “impose undue burdens
on interstate commerce.” Wayfair, 138 S. Ct. at 2090–
91. The Fifth Circuit’s rule applies to the purposesand-effects analysis, and specifically, to the effects
prong. In this context, this Court’s precedents have
time and again “eschewed formalism for a sensitive,
case-by-case analysis of purposes and effects” of state
laws in the “economic realities” of a market. See id. at
2089, 2094 (emphasis added). This pragmatic analysis
serves pragmatic goals: The Commerce Clause fundamentally ensures that “a national market for goods
and services” remains open across States, Tennessee
Wine, 139 S. Ct. at 2459, and guards against “economic
Balkanization” caused by state protectionism. Id. at

7
2461 (quoting Granholm v. Heald, 544 U.S. 460, 472
(2005)).
The Fifth Circuit’s rule plainly violates these principles. It carves out a per se exception for facially neutral corporate-form regulations from this Court’s established fact-intensive analysis of discriminatory effects. See Wayfair, 138 S. Ct. at 2092, 2094. While this
incompatibility alone invalidates the Fifth Circuit’s
rule, this conclusion becomes inescapable in light of
this Court’s recent determination that a ban of “all
publicly traded corporations” from a market evinces
“unalloyed protectionism.” Tennessee Wine, 139 S. Ct.
at 2474. These precedents show that the Fifth Circuit’s
position that the public corporation ban is necessarily
permissible because it is facially neutral is untenable.
The only defense the Fifth Circuit offers is that its
corporate-form exception follows from Exxon and a
line of Fifth Circuit precedent growing out of that case.
See Wal-Mart, 945 F.3d at 218–21. But this argument
is wrong. At issue in Exxon was a Maryland statute
that barred oil producers and refiners from operating
retail gas stations in the State. Exxon, 437 U.S. at
119–20. Because all producers and refiners were from
outside Maryland, the statute invariably impacted
out-of-state interests, but this was beside the point. Id.
at 123, 125. The relevant question, as this Court
framed it, was whether the statute had a discriminatory effect on the retail gas market overall. Id. at 125–
28. This is because the Commerce Clause “protects the
interstate market, not particular interstate firms.”
Exxon, 437 U.S. at 127–28 (discussing Hughes v. Alexandria Scrap Corp., 426 U.S. 794 (1976)). Under the
statute, in-state and out-of-state retailers, including

8
“several major interstate” retailers like Sears, Roebuck & Co., continued to compete actively. Id. at 125–
28, 126 n.15. The producers and refiners that exited
the market comprised only a small sliver of the out-ofstate activity, and overall, were 36 of the total 3,800
retailers. See id. at 121–23, 125–26. Given these realworld dynamics in the market, this Court concluded
the statute was not discriminatory.
Nevertheless, the Fifth Circuit derived from
Exxon a test that a “facially neutral” statute “impermissibly discriminates only when it discriminates between similarly situated in-state and out-of-state interests,” or specifically here, public corporations. WalMart, 945 F.3d at 220–21 (quoting Allstate Ins. Co. v.
Abbott, 495 F.3d 151, 163 (5th Cir. 2007)) (emphasis
added). Thus, according to the Fifth Circuit, so long as
a rule “treats in-state and out-of-state public corporations the same,” it does not have discriminatory effect.
Id. at 220 (emphasis added).
But Exxon does not support this result. First, nowhere in Exxon is the facial neutrality of a statute a
dispositive factor. Indeed, this Court emphasized the
importance of a fact-intensive real-world analysis of
discriminatory effects. Second, the key in Exxon was
that courts must pay attention to how a statute treats
in-state and out-of-state interests in the relevant market. The Court rejected a comparison of producers and
refiners versus retailers as the relevant inquiry because these entities did not compete in the same retail
market, under the Maryland statute. Exxon does not
require, and if anything, discourages, limiting the discriminatory-effects analysis to only the same types of
firms within a market. The Fifth Circuit’s ruling indeed exhibits the myopia that Exxon sought to redress,

9
namely an improper focus on harm to particular
“firms” (i.e., only out-of-state public corporations) rather than to the “interstate market” overall (i.e., all
out-of-state competitors). Exxon, 437 U.S. at 127–28.
This is the nub of Wal-Mart’s argument: The Fifth Circuit erred by ignoring the startling reality that 98% of
all retailers in Texas’s retail liquor market are 100%
Texas-owned.
Put another way, Exxon recognizes that States
may reasonably regulate entities based on their role in
an industry, such as by restricting the activities of refiners and producers. Similarly here, States need not
provide identical liquor licenses to wholesalers, package stores, or dining establishments, each of which
compete in their own markets. But simply because
Exxon permits regulation of industry role does not
compel or authorize special treatment for corporateform regulations under the Commerce Clause, as the
Fifth Circuit believes. Exxon instead requires a meaningful comparison of all in-state and out-of-state interests in the relevant market regardless of their corporate forms. Otherwise, a rule like the Fifth Circuit’s
insulates potentially protectionist policies from Commerce Clause scrutiny.
II. The Fifth Circuit’s Rule Undermines The
Goals Of The Commerce Clause.
The Fifth Circuit’s rule actively harms interstate
commerce, fair competition, and consumers. If this
Court does not act, the decision will give state legislatures a roadmap for circumventing the Commerce
Clause and installing protectionist regimes, like
Texas’s scheme to bar out-of-state competition.

10
A. Texas’s Ban Exemplifies The Protectionist Nature Of Corporate-Form
Regulations.
This case is, perhaps ironically for the Fifth Circuit, the perfect example of how a per se exception for
corporate-form regulations produces absurd results.
Under this rule, the Fifth Circuit overlooked significant—and rather extreme—evidence of discriminatory
effect. As this Court has already found, a total ban of
all public corporations from a market is likely to be a
Trojan horse for protectionist forces. See Tennessee
Wine, 139 S. Ct. at 2474.
At issue is Texas’s retail liquor market. For a retail store to sell liquor in Texas, it must obtain a socalled “Package Store Permit” or “P permit.” See WalMart Stores, Inc. v. Texas Alcoholic Beverage Comm’n,
313 F. Supp. 3d 751, 757 (W.D. Tex. 2018) (“Wal-Mart
(trial court)”). Texas also offers more limited licenses
for the retail sale of wine, beer, or both, but those permit holders comprise a different market than the liquor market at issue. See id. at 757–58. In 1995, Texas
enacted the public corporation ban, which provides
that a P permit “may not be owned or held by a public
corporation, or by any entity which is directly or indirectly owned or controlled, in whole or in part, by a
public corporation, or by any entity which would hold
the package store permit for the benefit of a public corporation.” Tex. Alco. Bev. Code § 22.16(a). Despite this
ban, a grandfather clause permitted certain Texas
public corporations, which already held P permits, to
remain in the market. See Wal-Mart (trial court), 313
F. Supp. 3d at 760–61. The grandfather clause technically covered all public corporations with existing P

11
permits. See Tex. Alco. Bev. Code § 22.16(f). But because Texas had also enforced residency requirements
as a prerequisite to obtaining P permits, no out-ofstate public corporations benefited from the grandfather clause. See Wal-Mart (trial court), 313 F. Supp.
3d at 759–61 (all “incumbent” permit-holders in the
market, at the time the ban went into effect, were
“Texans or majority-owned by Texans” due to the residency requirements). Eventually, the residency requirements were deemed unconstitutional, and Texas
ceased enforcing them for P permits in 2007, although
the public corporation ban remained. Id. at 767.
Now, nearly twenty-five years after the ban was
adopted, its discriminatory effects on the Texas retail
liquor market are staggering: Over 98% of retail liquor
stores are “100% Texas-owned.” Wal-Mart (trial
court), 313 F. Supp. 3d at 762–63, 767. The remaining
2% sliver are retail stores that belong overwhelmingly
to Texas entities with a single out-of-state shareholder. Id. at 762–63. Only 4 out-of-state firms directly
own any stores, in total 5 of the 2,579 stores. See id.
(citing to the Texas Alcohol Beverage Commission’s
trial exhibits 32 and 33, which respectively set out the
four out-of-state entities and the Texas entities that
have a single out-of-state shareholder). Large private
chains, belonging to a few Texas families, dominate
the market. See id. at 758–50, 783–84. Although the
total number of stores has remained stable over time,
these private “chains have greatly increased their
number of stores, and their volume of sales.” Id. at
759. The largest private chains have hundreds of locations and physically massive stores. Id. The trial court
credited an expert finding that these private chains

12
own at least 60% of the market share in twenty-two
Texas cities. Id.
The district court found ample evidence that the
public corporation ban is responsible for these abovedescribed effects. A comparison of the retail liquor
market with the wine and beer markets, which are not
subject to the ban, reveals significant differences:
Whereas the ten largest retail liquor chains are 100%
Texas-owned except for one, the ten largest chains in
the other markets are evenly split between Texas and
out-of-state retailers. Wal-Mart (trial court), 313 F.
Supp. 3d at 763 (crediting an expert conclusion that
“the dominance of Texas-owned firms in the package
store market is the result of the challenged statute”).
Even since Texas stopped enforcing residency requirements in 2007, “[o]nly one significant out-of-state company has entered the Texas [retail liquor] market.” Id.
at 767. This is because there are nearly no viable outof-state competitors other than public corporations. Id.
at 763. At least twenty-eight out-of-state public corporations are likely market entrants, but only around
three Texas public corporations may be entrants but
for the ban. Id. at 763–64. It is therefore beyond dispute that the ban is a unique barrier to entry for outof-state competition, and has marked protectionist effects.
In this context, the grandfather clause that the
Fifth Circuit ignored is particularly problematic. Even
if Texas could identify a colorable problem with public
corporations selling retail liquor, this problem presumably should be present for the Texas public corporations that the grandfather clause permits. But the
State’s willingness to license these Texas businesses
belies any legitimate non-protectionist objection to

13
public corporations as a category. The Fifth Circuit’s
ruling thus provides a detailed and precise roadmap
for how state legislatures may achieve protectionist
agendas without harming in-state interests.
B. Total Bans Of Public Corporations
From Markets Impede An Important
Source Of Interstate Competition.
The nonsensical nature of the Fifth Circuit’s rule
furthermore defies common sense because a total ban
of public corporations is substantially more likely than
not to be outright protectionist. Accordingly, if there
were any bright-line rule, it should be the opposite of
the Fifth Circuit’s. Viable interstate competitors are
overwhelmingly organized as public corporations and
are forces for local and national economic well-being
that the Constitution protects.
In Tennessee Wine, this Court recognized that a de
facto ban of “all publicly traded corporations” from a
retail liquor market was “plainly based on unalloyed
protectionism.” Tennessee Wine, 139 S. Ct. at 2474.
That ban required all shareholders, directors, and officers to be residents of a State, but the practical import was that “no corporation whose stock is publicly
traded may operate a liquor store in the State.” Id. at
2457 (emphasis added). The economic reason for the
protectionist effects is straightforward: Public corporations are major players in, and account for a substantial volume of, interstate commerce across industries. In the Texas market at issue, public corporations
are nearly the only conceivable source of interstate
commerce and competition, because only these entities
have the “necessary capital and scale” to compete.
Wal-Mart (trial court), 313 F. Supp. 3d. at 763. As a

14
result, Texas’s ban effectively bars all “the out-of-state
companies that are most likely to enter the Texas retail liquor market.” Id.
The reasons for protecting robust interstate commerce associated with publicly held corporations are
as evident today as they were to the Framers who established this policy in 1789. In the retail sector, advancements by public corporations have improved consumer welfare by enhancing the variety, quality, and
price of products. Even economists who worry about
increasing concentration in the U.S. economy have
found that large public retailers spearheaded significant innovation and economic growth. See, e.g.,
THOMAS PHILIPPON, THE GREAT REVERSAL 31, 34
(2019). Specifically, public retailers propelled innovation in operations, supply chain management, and
data-driven business strategy, thereby making the retail sector more efficient and enabling retailers to pass
on the corresponding “cost savings” to consumers. See
id. at 34. This growth in the retail industry in turn
drove “as much as one-third of the improvement” in
the U.S. economy overall during certain periods. See
id. at 31.
Public retailers also bring healthy competition to
local markets. As the district court recognized, the existing private chains in the Texas market “compete
vigorously” in order “to be the most convenient to their
customers and to offer the largest selection and variety
of products.” Wal-Mart (trial court), 313 F. Supp. 3d at
759. The entrance of public retailers would only enhance this competition. They would offer their characteristic wide selection of goods from national supply
chains in a convenient one-stop shopping experience.
Public retailers also develop unique products under

15
their own private labels. Nor would these retailers
overwhelm small retailers because Texas’s market is
dominated by a few massive private chains with firm
grips on local submarkets. See, e.g., id. at 759 (describing the large private chains as owning up to “40%” of
the stores in the “five most populous” metropolitan areas, where “two-thirds of the state’s population” live).
Furthermore, public retailers help local economies. They drive local economic development, increase
sales-tax revenue, adapt products to local consumer
interests, and provide store managers with budgets to
donate to local causes. Importantly, many of these retailers have dedicated programs for selling the goods
of local suppliers and businesses, including liquor producers, thus enhancing the visibility of these small
businesses.
These positive effects remain evident in States
that, unlike Texas, permit public corporations to compete in the retail liquor market. For example, California authorizes public retailers to obtain the equivalent
of P permits and thus to sell wine, beer, and liquor. See
generally Cal. Bus. & Prof. Code D. 9; Cal. Dep’t of Alcohol
Beverage
Control,
License
Types,
https://bit.ly/320qY25 (license type 21 “authorizes the
sale of beer, wine and distilled spirits for consumption
off the premises”). Public retailers, like Costco and
Walmart, sell liquor at hundreds of stores in California. Yet, the State’s market remains competitive and
diverse. A recent industry trend is the rise of small
producers that offer unique specialty goods for retail
sale in California. See, e.g., Cal. Dep’t of Tax and Fee
Admin., Pub. No. 329, Alcohol Industry Trends 2
(2019), available at https://bit.ly/2BVSEdN (noting
that “[m]ost new alcoholic beverage manufacturers are

16
small,” such as “small distillery accounts [which] increased by 60 percent” in just one year). An example
like California demonstrates that the sky will not fall
if Texas’s ban is lifted. If anything, Texas would enjoy
the benefits that its more competitive counterparts do,
like California.
C. The Fifth Circuit’s Rule Leads To
Arbitrary Results.
This leads to a final important point. Texas might
respond to the above objections by arguing that its
large, family-owned retailers already provide the competitive benefits that interstate, publicly-held retail
firms would. But this argument is self-defeating. As
discussed, public corporation retailers bring unique
economic benefits to local markets. But to the extent
that Texas views in-state family corporations and outof-state public corporations as interchangeable, its
choice to selectively ban the latter is, at best, arbitrary
and—perhaps more realistically—outright protectionist. Absent any legitimate non-protectionist justification for this line-drawing, the Fifth Circuit’s special
treatment of Texas’s public corporation ban is wholly
improper.
The only non-protectionist justifications that
Texas attempts are implausible on their face. During
the legislative process, Texas claimed that its ban was
necessary “to ensure owners were known to the community and could be held accountable for responsible
operation.” Wal-Mart, 945 F.3d at 216; see Wal-Mart
(trial court), 313 F. Supp. 3d at 761–62. Later, during
this litigation, Texas added that the ban might reduce
the availability of liquor and public consumption. See
Wal-Mart, 945 F.3d at 224–26. But in Tennessee Wine,

17
this Court made clear that state liquor regulations for
health and safety purposes are subject to the usual intensive scrutiny mandated under the Commerce
Clause, not to a per se rule like the Fifth Circuit’s.
“Where the predominant effect of a law is [economic]
protectionism, not the protection of public health or
safety,” it is invalid. Tennessee Wine, 139 S. Ct. at 2474
(emphasis added). In determining “predominant effect,” this Court considered, among other things,
whether the law was properly tailored to local health
or safety, whether “nondiscriminatory alternatives
would be insufficient to further” these objectives, and
whether there was “concrete evidence” and not just
“mere speculation” or “unsupported assertions” to
show that the law would actually achieve these objectives. Id. at 2474–76 (internal quotation marks omitted). Although the state law at issue in Tennessee Wine
was facially discriminatory, the predominant-effects
analysis is not limited to such laws. This Court considered facial discrimination as one factor among several
in its analysis. See id. at 2474. Given the fact-intensive
scrutiny that Tennessee Wine demands, the Fifth Circuit’s per se approval of Texas’s purported health-andsafety regulation is improper.
In any case, Texas’s claims that the public corporation ban are necessary for regulating consumption
or ensuring that liquor retailers are accountable are
unsupportable. Regarding consumption, the district
court found that “there is hardly any dispute” that
Texas can and does regulate consumption “most efficaciously” through “alternative means with less impact on interstate commerce,” like excise taxes and
permit limits. Wal-Mart (trial court), 313 F. Supp. 3d

18
at 776. Indeed, Texas “concede[d]” at trial that its excise taxes are the “proven method of reducing consumption,” apparently displacing any need for a
wholesale ban of public corporations. See id. Regarding accountability, Texas provided no evidence that
public corporations cannot be trusted to be accountable, that they are meaningfully different from Texas’s
large private chains in this regard, or that accountability tracks with the form of corporate entity that
owns a liquor retailer. The district court found that
“[c]redible evidence demonstrates that public corporations are not less accountable than firms with fewer
than 35 owners.” Id. at 765. Likewise, undisputed expert testimony confirmed “there is no support in the
academic literature for the notion that public corporations are less accountable to regulators than privately
held corporations. To the contrary, the literature indicates public corporations tend to be very concerned
with compliance and reputation.” Id.
These conclusions follow from how public retailers
typically operate: They comply with the law, have responsive legal teams, and train and require local employees to operate responsible, law-abiding stores. Because a nationwide reputation is at stake, public retailers arguably have more incentive to abide by local
regulations and to behave more accountably than regional competitors. Their experiences across jurisdictions furthermore enable them to develop compliance
mechanisms based on best practices and cutting-edge
technology. Meanwhile, the local employees who run
retail stores do not become any more or less familiar
with their communities simply because their corporate
parent is private or public. These employees undergo

19
extensive training on drinking-age laws, valid customer identification, and the recognition of forgeries.
In sum, the extensive record shows that there are no
meaningful differences between Texas’s existing private retailers and public corporations from a health
and safety standpoint. The Fifth Circuit is not permitted to give these in-state private retailers (and grandfathered Texas public retailers) an “artificial competitive advantages” for no justifiable reason, under the
Commerce Clause. Wayfair, 138 S. Ct. at 2094.
This final point bears emphasis. This Court has
repeatedly held that judge-made rules may not be arbitrary and must facilitate an actual regulatory objective consonant with the Commerce Clause. See Wayfair, 138 S. Ct. at 2092. In Wayfair, this Court rejected
a longstanding doctrine that only retailers with a
physical presence in a State were required to collect
sales tax on transactions with in-state customers, under Quill Corp. v. North Dakota, 504 U.S. 298 (1992).
See id. at 2084. The Quill rule effectively shielded
online retailers, without a physical presence in the
State, from this tax burden. This Court rejected Quill
because there was no intelligible Commerce Clause
policy served by tying the tax-collection obligation to
physical presence: The requirement did not protect the
due process rights of remote retailers, did not address
any actual hardships that these retailers faced in calculating and remitting sales tax, and only had the effect of putting “local businesses and many interstate
businesses with physical presence at a competitive disadvantage relative to remote sellers.” See id. at 209295. Even worse, the Quill rule incentivized retailers to
avoid physical presence in a State simply to take advantage of this “judicially created tax shelter.” Id. at

20
2094. As this Court recognized, the Commerce Clause
should forbid—rather than enact—a rule like Quill’s
that “creates rather than resolves market distortions.”
Id. at 2085.
The problem that the Court solved in Wayfair is
exactly the same problem with the Fifth Circuit’s per
se rule. It creates a shelter for protectionism by regulating an “arbitrary, formalistic distinction,” i.e., the
corporate form of the entity that owns a liquor retailer.
See Wayfair, 138 S. Ct. at 2092. So long as the entity
is not a public corporation, then it can compete in
Texas’s restricted market (unless, of course, it is a
grandfathered Texas public corporation). But this focus on corporate form bears no relation to any legitimate regulatory purpose. Like in Quill, the rule incentivizes retailers to manipulate their corporate form, as
well as state legislatures to issue similar laws with
subliminal protectionist motives. Even worse than the
Quill rule, however, the Fifth Circuit’s rule facilitates
the very evil that the Commerce Clause is designed to
address: state protectionism, economic Balkanization,
and obstruction of national markets. This point by itself counsels that this Court grant certiorari and reject
the Fifth Circuit’s arbitrary exception to the required
case-by-case scrutiny of discriminatory state laws.
CONCLUSION
The Court should grant Walmart’s petition for a
writ of certiorari.

21
Respectfully submitted,
Deborah R. White
RETAIL LITIGATION CENTER,
INC.
99 M Street, SE
Suite 700
Washington, DC 20003

July 13, 2020

Eric F. Citron
Counsel of Record
Lisa X. Jing
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
(202) 362-0636
ecitron@goldsteinrussell.com

